APPENDICES

1a
APPENDIX A

NOTE: This disposition is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
MAXELL, LTD.,
Plaintiff-Appellant
v.
FANDANGO MEDIA, LLC,
Defendant-Appellee

2019-1088
Appeal from the United States District Court for
the Central District of California in No. 2:17-cv07534-AG-SS, Judge Andrew J. Guilford.
JUDGMENT

NICOLE A. SAHARSKY, Mayer Brown LLP,
Washington, DC, argued for plaintiff-appellant. Also
represented by JAMIE B. BEABER, JAMES A.
FUSSELL, III, KFIR LEVY.
STEVEN M. LIEBERMAN, Rothwell, Figg, Ernst
& Manbeck, PC, Washington, DC, argued for defendant-appellee. Also represented by SHARON DAVIS,
JENNIFER MAISEL.

2a
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (PROST, Chief Judge, MOORE and
WALLACH, Circuit Judges).
AFFIRMED. See Fed. Cir. R. 36.

ENTERED BY ORDER OF THE COURT

October 8, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL

Case No. CV 17-07534 AG (SSx)
Date
September 11, 2018
MAXELL, LTD. v. FANDANGO MEDIA,
Title
LLC

Present: The Honorable ANDREW J. GUILFORD
Lisa Bredahl
Not Present
Deputy Clerk
Court Reporter /
Tape No.
Recorder
Attorneys Present for Plaintiffs:
Attorneys Present for Defendants:
Proceedings: [IN CHAMBERS] ORDER REGARDING DEFENDANT’S MOTION FOR
JUDGHMENT ON THE PLEADINGS (DKT. 89)

On October 13, 2017, Plaintiff Maxell, Ltd. filed
this action for patent infringement, alleging that Defendant Fandango Media, LLC infringes seven U.S.
patents. (See Dkt. 1.) On January 9, 2018, Fandango
filed a Motion to Dismiss for Failure to State a Claim
under Fed. R. Civ. P. 12(b)(6), arguing that all of the

4a
asserted claims of the asserted patents are invalid under 35 U.S.C. § 101. (Dkt. 44 (“Motion to Dismiss”).)
The Court found Claim 7 of the ’679 Patent drawn to
patent-ineligible subject matter and denied the remainder of the Motion to Dismiss. (Dkt. 66.)
After the parties filed a Joint Claim Construction
and Prehearing Statement (Dkt. 76), Fandango filed a
Motion for Judgment on the Pleadings under Fed. R.
Civ. P. 12(c) as to Counts I, II, and III of the Complaint. (Dkt. 89 (“Motion for Judgment on Pleadings”).) Maxell filed an Opposition (Dkt. 93), and Fandango filed a reply. (Dkt. 96.)
The Court GRANTS Fandango’s Motion for Judgment on the Pleadings. (Dkt. 89.)
1. Background
1.1 Relevant Asserted Patents
Fandango moves for judgment on the pleadings as
to three of the asserted patents: U.S. Patent Nos.
8,311,389 (“the ’389 Patent”); 9,083,942 (“the ’942 Patent”); and 9,773,522 (“the ’522 Patent”). (Dkt. 89 at
1.) These three patents belong to the same patent
family, share a common specification, and share the
same title (“Digital Information Recording Apparatus,
Reproducing Apparatus and Transmitting Apparatus”). The ’522 Patent issued on September 26,
2017 and is a continuation of the ’942 Patent. The ’942
Patent issued on July 14, 2015 and is a continuation
of the ’389 Patent. The ’389 Patent issued on November 13, 2012.
The ’389, ’942, and ’522 Patents relate to allowing
users to access digital content for a set period of time.
Both Maxell and Fandango refer to them as the
“Rental Expiration Patents.” (See generally, Dkts. 89,
93.) These patents purport to balance concerns regarding unauthorized copies of copyrighted material

5a
and “user inconvenience” associated with time-limited
transmissions
of
copyrighted,
digital
information. ’522 Patent at 2:39-65. They do so in two different ways. The claims of the ’389 Patent, for example, relate to a scenario where a user rents a video
from an online service and the user’s access to the
video is disabled at the end of a predefined rental period (referred to as “the first period”), no matter
whether the user has finished watching the
video. ’389 Patent at 19:5-31. The claims of the ’942
and ’522 Patents, meanwhile, focus more on the specification’s purported concern of user inconvenience. If
a user waits to start a video until near the end of the
rental period, the claims of the ’942 and ’522 Patents
allow the user to finish the video even after the rental
period has ended in a manner that, according to the
specification, “prevent[s] circulation of unauthorized
copies and permit[s] the user to perform conditional
playback.” ’522 Patent at 2:39-60.
1.2 Relevant Procedural History
In the Motion to Dismiss, Fandango argued that
all of Maxell’s asserted patents fail to claim patent eligible subject matter. In its opposition to the Motion
to Dismiss, Maxell emphasized the claim term “control information” and argued that construction of the
term might ultimately impact the patent eligibility
analysis. (Dkt. 47 at 12.) Fandango replied that
“Claim 13 requires only that the ‘control information’
include the retention and playback period” (Dkt. 50 at
12) and that these “non-technical concept[s]” should
not influence patentability. Id. at 5-6. The Court’s
order emphasized that patent eligibility can be determined on a motion to dismiss “only when there are no
factual allegations that, taken as true, prevent resolving the eligibility questions as a matter of law.” (Dkt
66 at 4 (citing Aatrix Software, Inc. v. Green Shades

6a
Software, Inc., 882 F.3d 1121, 1128 (Fed. Cir. 2018)).)
The Court “decline[d] to make a patentability determination before construing this term (‘control information’) and further considering at least this potential factual dispute.” (Dkt. 66 at 7.)
Following the Motion to Dismiss, the parties eventually agreed on a construction of the term “control information” for the ’389, ’942 and ’522 Patents. (Dkt.
81 at 6.) Without a claim construction dispute remaining, Fandango contends that the ’389, ’942
and ’522 Patents are ripe for eligibility review at the
pleading stage. (Dkt. 89 at 2.)
2. Legal Standard
2.1 Motion For Judgment On The Pleadings
“Analysis under Rule 12(c) is substantially identical to analysis under Rule 12(b)(6) because, under
both rules, a court must determine whether the facts
alleged in the complaint, taken as true, entitle the
plaintiff to a legal remedy.” Chavez v. United States,
683 F.3d 1102, 1108 (9th Cir. 2012) (internal quotation marks omitted). Under Fed. R. Civ. P. 8(a)(2), a
complaint must contain “a short and plain statement
of the claim showing that the pleader is entitled to relief,” in order to “give the defendant fair notice of what
the . . . claim is and the grounds upon which it rests.”
Bell Atl. Corp. v, Twombly, 550 U.S. 544, 555 (2007)
(internal quotation marks omitted). In analyzing the
complaint’s sufficiency, a court must “accept[] all factual allegations in the complaint as true and constru[e] them in the light most favorable to the nonmoving party.” Skilstaf, Inc. v. CVS Caremark Corp.,
669 F.3d 1005, 1014 (9th Cir. 2012). But “conclusory
allegations of law and unwarranted inferences” are insufficient to avoid a dismissal. Cousins v. Lockyer, 568

7a
F.3d 1063, 1067 (9th Cir. 2009) (citation and internal
quotation marks omitted).
“Under Rule 12(c), judgment will not be granted
unless the movant clearly establishes that no material
issue of fact remains to be resolved and that he is entitled to judgment as a matter of law.” Jablonski v.
Pan Am. World Airways, Inc., 863 F.2d 289, 290 (3rd
Cir. 1988). Whether a claim is drawn to patent-eligible subject matter under § 101 is ultimately an issue
of law that may be decided on a Rule 12(c) motion under certain circumstances. See In re Bilski, 545 F.3d
943, 951 (Fed. Cir. 2008), aff’d, Bilski v. Kappos, 561
U.S. 593, 130 S.Ct. 3218, 177 L.Ed.2d 792 (2010).
Generally, the court may not consider matters outside the pleading without converting a Rule 12(c) motion to a summary judgment motion under Rule 56.
See Fed. R. Civ. P. 12(d). However, because claims
construction is a question of law, Markman v.
Westview Instruments, Inc. 52 F.3d 967, 970-71 (Fed.
Cir. 1995), a court “may take notice of and rely on its
claim construction opinion without converting Defendant’s Motion into a motion for summary judgment.” Intellectual Ventures I LLC v. AT&T Mobility
LLC, 235 F. Supp. 3d 577, 588 (D. Del. 2016).
2.2 Patent Eligibility Under 35 U.S.C. § 101
“Whoever invents or discovers any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof,
may obtain a patent therefor, subject to the conditions
and requirements of this title.” 35 U.S.C. § 101.
“[T]his provision contains an important implicit exception: Laws of nature, natural phenomena, and abstract ideas are not patentable.” Alice Corp. Pty. v.
CLS Bank Int’l, 134 S. Ct. 2347, 2354 (2014) (quoting
Ass’n for Molecular Pathology v. Myriad Genetics, Inc.,

8a
133 S. Ct. 2107, 2116 (2013)). The Supreme Court has
established a two-part test for evaluating patent eligibility under § 101. “First, we determine whether the
claims at issue are directed to one of those patent-ineligible concepts.” Id. at 2355 (quoting Mayo Collaborative Servs. v. Prometheus Labs., Inc., 132 S. Ct.
1289, 1296-97 (2012)). If so, courts move to the second
step and ask, ‘[w]hat else is there in the claims before
us?’ ” Id. To answer this second question, courts “consider the elements of each claim both individually and
‘as an ordered combination’ to determine whether the
additional elements ‘transform the nature of the
claim’ into a patent-eligible application.” Id. (quoting
Mayo, 132 S. Ct. at 1297-98). “We have described step
two of this analysis as a search for an ‘inventive concept’ – i.e., an element or combination of elements that
is ‘sufficient to ensure that the patent in practice
amounts to significantly more than a patent upon the
[ineligible concept] itself.’ ” Id. (quoting Mayo, 132 S.
Ct. at 1294). This second step is satisfied when the
claim limitations “involve more than performance of
‘well-understood, routine, [and] conventional activities previously known to the industry.’ ” Content Extraction & Transmission LLC v. Wells Fargo Bank,
Nat. Ass’n, 776 F.3d 1343, 1347-48 (Fed. Cir. 2014).
The Supreme Court has made clear, for example, that
“the mere recitation of a generic computer can’t transform a patent-ineligible abstract idea into a patent-eligible invention.” Alice, 134 S. Ct. at 2358.
Patent eligibility is a question of law that may include underlying questions of fact. Aatrix, 882 F.3d at
1128 (“While the ultimate determination of eligibility
under § 101 is a question of law, like many legal questions, there can be subsidiary fact questions which
must be resolved en route to the ultimate legal determination.”); accord Berkheimer v. HP Inc., 881 F.3d

9a
1360, 1365 (Fed. Cir. 2018). The Federal Circuit has
affirmed district courts’ conclusions of patent ineligibility under § 101 at the pleading stage. See, e.g., Content Extraction, 776 F.3d at 1349; see also id. (“Although the determination of patent eligibility requires
a full understanding of the basic character of the
claimed subject matter, claim construction is not an
inviolable prerequisite to a validity determination under § 101.”). But recent Federal Circuit decisions have
emphasized that patent eligibility can be determined
on the pleadings “only when there are no factual allegations that, taken as true, prevent resolving the eligibility question as a matter of law.” Aatrix, 882 F.3d
at 1125.
3. Analysis
3.1 Representative Claim
In its Motion for Judgment on Pleadings, Fandango proposes that Claim 13 of the ’522 Patent
should be treated as representative of the asserted
claims of the ’389, ’942 and ’522 Patents for purposes
of the § 101 inquiry. (Dkt. 89 at 8-11.) Claim 13 of
the ’522 Patent states:
13. A method, comprising:
transmitting audio/video information;
receiving the audio/video information;
storing the audio/video information on a storage medium; and
reproducing the audio/video information from
the storage medium according to control information related to the audio/video information,
wherein the control information includes: a
first period for retaining the audio/video information on the storage medium, and a
second period, that begins at the start of an

10a
initial reproduction of the audio/video information, for enabling a start of a reproduction of the audio/video information
stored on the storage medium, and
wherein, in a case where an elapsed time from
a retaining of the audio/video information
is within the first period and an elapsed
time from an initial reproduction of the audio/video information is within the second
period, enabling a reproduction of the audio/video information, and, in a case where
a reproduction is started before the end of
the first period and the reproduction is continuing at the end of the first period, enabling the reproduction to an end of the audio/video information beyond the end of the
first period, and thereafter disabling a start
of another reproduction of the audio/video
information even if an elapsed time from
the initial reproduction of the audio/video
information is within the second period.
’522 Patent at 21:63-22:24.
The other asserted claims in these three patents
are:
U.S. Patent No.
Asserted Claims
8,311,389
(The ’389 Patent) 3*, 4, 7*, 8
9,083, 942
1*, 2, 4*, 5, 7*, 8, 10*, 11, 13*,
(The ’942 Patent) 14, 16*, 17, 19*, 20, 22*, 23
9,773, 522
(The ’522 Patent) 13*, 14, 16*, 17, 19*, 20, 22*, 23
(Dkt. 89 at 5 (the asterisks represent other independent claims).)
In its Opposition, Maxell first says it “does not disagree that the Court may treat Claim 13 of the ’522

11a
Patent as representative for the purposes of Fandango’s 12(c) motion.” (Dkt. 93 at 3.) But Maxell goes
on to say, “given Fandango’s focus on a representative
claim, its comments regarding the other asserted
claims (whether in the ’522 Patent or the ’389 and ’942
Patents) are inappropriate and should be ignored.”
Id. at 4. Maxell then asserts that the Court can focus
on Claim 13 as representative, but can’t “necessarily
inject[] the other asserted claim into the Section 101
analysis.” Id.
Like patent invalidity challenges under other
grounds, an invalidity challenge under § 101 is generally analyzed on a claim-by-claim basis. But the Federal Circuit has acknowledged that the analysis can
also be performed by way of representative claims.
See Content Extraction, 776 F.3d at 1348 (finding representative claims appropriate where district court
had found claims were “substantially similar and
linked to the same abstract idea”); Berkheimer, 881
F.3d at 1365 (“Courts may treat a claim as representative in certain situations, such as if the patentee does
not present any meaningful argument for the distinctive significance of any claim limitations not found in
the representative claim or if the parties agree to treat
a claim as representative.”). When parties agree to
limit their eligibility arguments to certain representative claims, they are agreeing that “the eligibility of
the remaining claims would stand and fall with those
representative claims.” Automated Tracking Sols.,
LLC v. Coca-Cola Co., 723 Fed. App’x 989, 993 (Fed.
Cir. 2018).
Here, Maxell seems to be saying that the Court
may treat Claim 13 as representative, but if the claim
is found ineligible, a separate Section 101 analysis
must be performed on each of the remaining asserted
claims. Maxell can’t have it both ways. By agreeing

12a
to a representative claim, Maxell can’t then ask for
each asserted claim to be individually analyzed. This
would contradict the purpose of relying on a representative claim to perform a patent eligibility analysis. Even setting aside Maxell’s assertion that it “does
not disagree” that Claim 13 is representative, Maxell’s
conclusory remark that “the remaining asserted
claims provide additional patent-eligible limitations”
(Dkt. 93 at 3) does not present any “meaningful argument for the distinctive significance of any claim limitations not found in the representative claim.” Berkheimer, 991 F.3d at 1365. Moreover, at the hearing,
Maxell did not dispute that Claim 13 could be used as
a representative claim and referenced Claim 13 as
representative multiple times. Because Maxell does
not clearly dispute that Claim 13 of the ’522 Patent is
representative of the asserted claims in the ’389, ’942
and ’522 Patents, and upon reviewing the language of
those claims (see also Dkt. 89-1), the Court finds it appropriate to designate Claim 13 of the ’522 Patent as
representative of the asserted claims of the ’389, ’942
and ’522 Patents for purposes of its § 101 analysis.
3.2 Alice/Mayo Step One
Under step one of the Alice/Mayo analysis, the
Court must “first determine whether the claims at issue are directed to a patent-ineligible concept.” Alice,
134 S. Ct. at 2355.
At the outset of the Alice/Mayo step one section of
its Opposition, Maxell concedes that at a high level,
the claimed invention is directed to the general problem of “balancing the rights of content owners and
consumers.” (Dkt. 93 at 13.) But Maxell states that
in the context of a digital video transmission system
this problem requires a unique solution. Id. Maxell
argues that the ’389, ’942 and ’522 Patents uniquely
solve this problem by “send[ing] content with detailed

13a
‘control information’ that instructs the user’s local system to enforce certain fine-grained, event-based temporal restrictions on data retention and playback.” Id.
Maxell’s purported solution, however, is abstract.
The parties have agreed that “control information”
means “information that includes a set of temporal restrictions.” (Dkt. 81 at 6.) These temporal restrictions
are simply rules that govern when data can be accessed. The concept of restricting access to data based
on rules is something that the Federal Circuit has routinely held abstract. See Accenture Global Servs.,
GmbH v. Guidewire Software, Inc., 728 F.3d 1336,
1344 (Fed. Cir. 2013) (finding the claims were directed
to the abstract idea of “generating tasks [based on]
rules . . . to be completed upon the occurrence of an
event.”); Smartflash LLC v. Apple Inc., 680 Fed. App’x
977, 983-84 (Fed. Cir. 2017) (finding ineligible claims
“directed to the abstract idea of conditioning and controlling access to data based on payment.”); SmartGene Inc. v. Advanced Biological Labs., SA, 555 Fed.
App’x 950, 954-55 (Fed. Cir. 2014) (finding ineligible
claims directed to the abstract idea of comparing
stored and input data and using rules to identify options). The concept of control information in particular is drawn to rules based on time (“temporal restrictions”). There is nothing in these set of rules that
is tied to a particular technological improvement. Cf.
McRO, Inc. v. Bandai Namco Games Am. Inc., 837
F.3d 1299, 1313 (Fed. Cir. 2016) (finding eligible
claims directed towards specific rules that allowed
computers to produce animated characters in a way
that could not previously be accomplished by human
animators). Instead, implementing rules based on
certain time constraints is something that has been
practiced by humans in many contexts throughout human history.

14a
Indeed, Maxell’s argument that the claims “find[]
no analog” in brick-and-mortar examples is particularly unpersuasive. (Dkt. 93 at 13; id. at 13 n.5.) Maxell contends that “businesses could not impose eventbased restrictions on playback or disable playback remotely.” Id. at 14. But imposing specific event-based
restrictions on activity is, again, something that humans have been doing in many contexts throughout
human history. As just one example, retail stores regularly let customers finish their shopping and check
out after the store has technically closed. A temporal
restriction (store closing hours) is enforced but there
is an optional, restricted “grace period” for customers
to check out and grab any last items that allows for
customer convenience without overly burdening the
retail store (for instance, risking higher theft of merchandise if the store was open all night).
Although Maxell appears to take the position that
the claims are drawn to a technical solution because
they recite concepts of restrictions on playback, this is
simply taking the same abstract idea discussed and
limiting it to a technical field. Elec. Power Grp., LLC
v. Alstom S.A, 830 F.3d 1350, 1354 (Fed. Cir. 2016)
(“limiting the claims to the particular technological
environment of power-grid monitoring is, without
more, insufficient to transform them into patent-eligible applications of the abstract idea at their core”).
That does not change the nature of the claims and the
fact that the concept of temporal restrictions has “existed long before computers became ubiquitous.” Intellectual Ventures I LLC v. Erie Indem. Co., 200 F.
Supp. 3d. 565, 575 (W.D. Penn. 2016).
Maxell attempts to address a similar argument in
step two, but does not provide persuasive reasons to
support its position. Maxell argues that the problem
of balancing the rights of content owners and viewers

15a
in the context of digital content transmission necessarily arises in a technical context, and that the proposed solution is likewise rooted in that technical context (Dkt. 93 at 16-17.) But unlike the eligible claims
in DDR Holdings, Claim 13 is not “necessarily rooted
in computer technology.” DDR Holdings, LLC v. Hotels.com, L.P., 773 F.3d 1245, 1257 (Fed. Cir. 2014).
Instead, it “merely claims a computerized solution to
a longstanding problem that exists outside of computers”, i.e., balancing the rights of property owners with
that of user convenience. Intellectual Ventures I LLC
v. Erie Indem. Co., 711 Fed. App’x 1012, 1014-15 (Fed.
Cir. 2017). As evidenced by the discussion of brickand-mortar analogies, the idea of enforcing the expiration of access periods is not confined to the realm of
computers. Maxell’s arguments that the claims are
directed to a technological improvement are not supported by the plain language of the claims.
In the same vein, Maxell argues that there is no
analog in the technological sphere as “then-existing
computer technology . . . restricted only the number of
copies that a user could make rather than the time at
which she could make them.” (Dkt. 93 at 14.) As an
initial aside, the specification of the ’522 Patent
acknowledges that temporal periods for restricting access to content were known at the time of the invention. ’522 Patent 2:15-35 (“JP-A-2000-149417 discloses a method . . . [where] a limit of 90 minutes for
instance is set to the period for reproduction and playback . . . .”). More importantly, novelty is irrelevant
to the identification of an abstract idea. SAP Am., Inc.
v. InvestPic, LLC, 898 F.3d 1161, 1163 (Fed. Cir. 2018)
(“We may assume that the techniques claimed are
‘[g]roundbreaking, innovative, or even brilliant,’ but
that is not enough for eligibility.”). Simply because
something was not known in a technological field, i.e.

16a
novel, does not automatically make it a technological
improvement. There is a distinction between claiming
an improvement to computer functionality as compared to an improvement in the performance of “economic or other tasks for which a computer is used in
its ordinary capacity.” Enfish, LLC v. Microsoft Corp.,
822 F.3d 1327, 1336 (Fed. Cir. 2016).
Maxell’s opposition repeatedly makes the argument that Fandango has described the asserted
claims at “a high-level of abstraction untethered from
the language of the claims,” leading to the incorrect
conclusion on patent eligibility. (Dkt. 93 at 1 (citing
Enfish, 822 F.3d at 1337).) Fandango characterizes
the abstract idea embodied by the asserted claims as
“enforcing the expiration of access periods for audio/video content.” (Dkt. 89 at 4.) Maxell disagrees
with this characterization and asserts that the claims
are “directed to transmitting content with ‘control information’ that enforces a particular set of temporal
restrictions, including at least a retention period and
reproduction period.” (Dkt. 93 at 15; see also id. at
16.) But as already explained, Maxell’s characterization of the claims still shows that they are directed to
abstract concepts. What Maxell is saying is that the
claims are directed to a method for applying a set of
time restriction rules to enforce access to content.
This characterization does not reveal any technological improvement – it’s just a more specific-sounding
way to describe an abstract concept. BSG Tech LLC
v. Buyseasons, Inc., No. 2017-1980, 2018 WL 3862646,
at *4 (Fed. Cir. Aug. 15, 2018) (“[A] claim is not patent
eligible merely because it applies an abstract idea in
a narrow way . . . to satisfy step one, the claim’s focus
must be on something other than the abstract idea itself.”).

17a
To the extent Maxell’s characterization is an attempt to focus the claims on the concept of data transmission and how the control information is associated
with the particular content of interest, this characterization isn’t reflected by the plain claim language. As
will be further discussed in Alice step two, Claim 13,
for instance, recites the functional steps of “transmitting audio/visual information”, “receiving audio/visual
information”, “storing audio/video information”, and
“reproducing audio/video information according to
control information,” with no information about how
these functional steps must be achieved. ’522 Patent
21:63-22:24. Claims directed towards functional language are more likely to result in patent ineligibility
when those claims fail to explain how the claimed
functions are performed. Elec. Power Grp., 830 F.3d
at 1356 (“Indeed, the essentially result-focused, functional character of claim language has been a frequent
feature of claims held ineligible under § 101 . . . .”).
For similar reasons, Maxell’s argument that Fandango “fail[s] to account for the specific requirements
of the claims” by allegedly ignoring the “structure of
the copy control information” is unpersuasive. (See
Dkt. 93 at 15.) Maxell relies on Figure 9 of the ’522
Patent specification to show the structure and complexity of “control information” and provide a basis for
patent eligibility. But the parties have already agreed
to the meaning of “control information” as simply “information that includes a set of temporal restrictions.”
The “structure” of the control information in Figure 9
is not recited in the claims. More importantly, all that
Figure 9 shows is a list of data fields. It doesn’t show
a unique “structure.” Instead, it appears to just shows
different fields providing rules about time and permissions. (Dkt. 93 at 15 (“control information may include a number of fields defining specific temporal,

18a
event-based permissions . . . .”).) Maxell’s argument
does not save the claims, either at step one or step two.
Finally, Maxell argues that the claims do not
“preempt Fandango’s abstract concept of managing
the expiration of access periods for audio/video content.” (Dkt. 93 at 16.) While preemption concerns are
“the basis for the judicial exceptions to patentability . . . , the absence of complete preemption does not
demonstrate patent eligibility.” Ariosa Diagnostics,
Inc. v. Sequenom, Inc., 788 F.3d 1371, 1379 (Fed. Cir.
2015). Further, “where a patent’s claims are deemed
only to disclose patent ineligible subject matter under
the Alice framework . . . preemption concerns are fully
addressed and made moot.” Two-Way Media Ltd. v.
Comcast Cable Commc’ns, LLC, 874 F.3d 1329, 1339
(Fed. Cir. 2017).
At the hearing, Maxell emphasized two main arguments under Alice/Mayo step one. First, Maxell argued that the fact that there are two claimed time periods in the patents provides an improvement over the
prior art in the field of digital video transmission systems. Initially, the Court notes that the concept and
logic Maxell relied on for this point are not necessarily
reflected in the claim language of the ’389 Patent. Unlike the ’522 and ’942 Patent claims, which use the
second time period to facilitate a “grace period” for a
user, the ’389 Patent claims don’t provide for a grace
period at all. The ’389 Patent claims only allow for
reproduction of the recorded audio/video information
when the information is accessed and fully played
within the first time period. (’389 Patent 19:35-63).
But this observation is beside the point. The concept
of using two time periods to control access to data instead of one time period, as recited in the context of
the claims, is still an abstract concept. The Court
stated as much in its tentative order, but Maxell failed

19a
to respond to this assertion beyond repeating its argument that the Court’s review of the claims was conducted as an unreasonably high level of abstraction
(something the tentative also addressed). Maxell additionally failed to explain how the patent’s disclosed
concerns about copyright holder protection and user
convenience relate to whether the patents are directed
to technological improvements in the realm of digital
video transmission systems. While the use of two time
periods may be an improvement to copyright holder
protection and user convenience in that two time periods were not previously used in the field, this does
not save them from being abstract concepts.
Second, Maxell argued at the hearing that the
brick and mortar analogies raised by Fandango and
the Court are inappropriate because the claims require remote playback. While the claims do not specifically recite the requirement of “remote playback”,
Maxell contends that the recited “sending”, “transmitting” and “receiving” steps in the claims are necessarily done remotely over a computer. Even accepting
Maxell’s position as true, the sending, transmission,
and receiving of information over a computer network
is merely the use of generic computer limitations that
“do[ ] not make an otherwise ineligible claim patent
eligible.” Mortgage Grader, Inc. v. First Choice Loan
Servs. Inc., 811 F.3d 1314, 1325 (Fed. Cir. 2016) (citing DDR Holdings, 773 F.3d at 1256). Further, the
Court raised a new brick and mortar analogy at the
hearing that does involve the concept of remote playback: Netflix mailing DVD rentals. To receive a DVD
through Netflix, a user remotely orders copyrighted
content, and that copyright holder’s content is loaned
to the user for a predetermined amount of time (with

20a
additional time or failure to return subject to a penalty). Maxell did not provide a response to this analogy or argue its inapplicability at the hearing.
For these reasons and others, the Court finds representative Claim 13 is directed to the abstract idea of
applying a set of time restriction rules to enforce access to content and moves on to Alice/Mayo step two.
3.3 Alice/Mayo Step Two
At Alice/Mayo step two, the Court searches for an
“ ‘inventive concept’ – i.e., an element or combination
of elements that is sufficient to ensure that the patent
in practice amounts to significantly more than a patent upon the ‘ineligible concept’ itself.” Alice, 134 S.
Ct. at 2355 (quoting Mayo, 132 S. Ct. at 1294).
Maxell’s primary argument is that the Court cannot decide patent eligibility at this stage because a
factual dispute remains about what is routine and
conventional in the art. (Dkt. 93 at 11-12); see Aatrix,
882 F.3d at 1125 (“[P]atent eligibility can be determined at the Rule 12(b)(6) stage . . . only when there
are no factual allegations that, taken as true, prevent
resolving the eligibility questions as a matter of law.”).
Specifically, Maxell argues that a factual dispute remains as to “whether the asserted claims, as arranged
with control information, are conventional and wellknown . . . .” Id. at 5, 11-12.
Maxell’s position regarding Alice/Mayo step two
ignores the fact that “[t]he relevant inquiry is not
whether the claimed invention as a whole is unconventional or non-routine.” BSG, 2018 WL 3862646 at
*7. After identifying an ineligible concept at step one,
we ask at step two ‘[w]hat else is there in the claims
before us?” Mayo, 566 U.S. at 78, 132 S. Ct. 1289. In
Alice, “the Court only assessed whether the claim limitations other than the invention’s use of the ineligible

21a
concept to which it was directed were well-understood,
routine and conventional.” BSG, 2018 WL 3862646 at
*7 (emphasis added) (citing Alice, 134 S. Ct. at 235960).
Here, the identified ineligible concept is applying a
set of time restriction rules to enforce access to content. In other words, using “control information” to
enforce access to content. (See Dkt. 93 at 15 (“The illustrated control information may include a number
of fields defining specific temporal, event-based permissions . . . .”).) According to Maxell, the claimed invention “decouples various temporal copyrights, such
as ‘retention’ rights, ‘playback’ rights, ‘pause’ rights,
‘delayed start time’ rights, and the like, which the
rights holder can set separately using a specific type
of ‘control information.’ ” (Id. at 2-3 (emphasis added)
(citing ’522 Patent at 9:60-12:47).) But these facts do
not save the claims at step two. A more narrowly tailored and specific set of rules is a set of rules nonetheless and are themselves the abstract concept. Because
“a claimed invention’s use of the ineligible concept to
which it is directed cannot supply the inventive concept that renders the invention ‘significantly more’
than that ineligible concept,” BSG, 2018 WL 3862646
at *7, the Court must look to remaining claim limitations, excluding “control information.”
Beyond “control information,” Maxell doesn’t argue that any of the other limitations of Claim 13 are
unconventional, and the Court finds nothing in the
claim that “requires anything other than a conventional computer and network components operating
according to their ordinary functions.” Two-Way Media, 874 F.3d at 1339. Indeed the specification does
not describe any of the particular components as nongeneric in any way or a specific way that the individual steps of Claim 13 must be achieved. ’522 Patent

22a
19:30-33 (“The invention may be embodied in other
specific forms without departing from the spirit or essential characteristics. The present embodiment is
therefore to be considered illustrative and not restrictive . . . .”).
Maxell relies on the Federal Circuit’s decision in
Bascom for the assertion that “an inventive concept
can be found in the nonconventional and non-generic
arrangement of known, conventional pieces.” (Dkt. 93
at 12 (citing Bascom Glob. Internet Servs., Inc. v.
AT&T Mobility, LLC, 827 F.3d 1341, 1350 (Fed. Cir.
2016).) But Maxell again fails to provide any concrete
examples of how the claimed steps, even when considered as an ordered combination, recite more than conventional, routine and well-understood elements. As
stated by many courts, merely reciting an abstract
idea performed on a set of generic computer components does not contain an inventive concept. CyberSource Corp. v. Retail Decisions, Inc., 654 F.3d 1366,
1370 (Fed. Cir. 2011). Here, beyond arguing that control information consists of a particularized combination of rules that are unconventional (an argument
this Court has rejected) Maxell fails to show that the
claim “requires anything other than a conventional
computer and network components operating according to their ordinary functions.” Two-Way Media, 874
F.3d at 1339.
At the hearing, Maxell urged the Court to consider
Maxell’s submitted expert report for its contention
that the claimed steps were non-routine and unconventional. Maxell suggested that the unique nature
of jurisprudence relating to § 101 disputes post-Alice
allows the Court to consider evidence outside the
pleadings even on a Rule 12(c) motion. It’s not necessary for the Court to decide this issue. Even if the
Court were to consider Mr. Lipoff ’s report, there

23a
would be no change in the outcome of this Order. Almost all of Lipoff ’s report is based on the opinion that
“control information” is an unconventional element of
the claims. As already explained, “a claimed invention’s use of the ineligible concept to which it is directed cannot supply the inventive concept that renders the invention ‘significantly more’ than that ineligible concept.” BSG, 2018 WL 3862646 at *7.
Maxell also argued at the hearing that, accepting
the statements in the patents as true at the Rule 12(c)
stage, a question of material fact precludes dismissal
because the patent specification characterizes the disclosed invention as providing improvements over the
prior art. As Fandango aptly observed, it is common
for a patent to describe the state of the art and the
purported improvements over the prior art in the
specification. In fact, the Manual of Patent Examination (“MPEP”) specifically directs patent applicants to
include information on the state of the art and improvements over the prior art.
(b) The specification must set forth the precise invention for which a patent is solicited, in such
manner as to distinguish it from other inventions and from what is old. It must describe completely a specific embodiment of the process, machine, manufacture, composition of matter or improvement invented, and must explain the mode of
operation or principle whenever applicable. The
best mode contemplated by the inventor of carrying out his invention must be set forth.
(c) In the case of an improvement, the specification must particularly point out the part or
parts of the process, machine, manufacture, or
composition of matter to which the improve-

24a
ment relates, and the description should be confined to the specific improvement and to such parts
as necessarily cooperate with it or as may be necessary to a complete understanding or description
of it.

See MPEP 608.1 (“Specification”); see also 37 CFR
1.71 (“Detailed description and specification of the invention”) (emphasis added). It is possible that the patent specification in this case discloses an “improvement” to previous digital video transmission systems.
It certainly states that it does. But the § 101 inquiry
does not require just any “improvement.” Indeed,
“[w]e may assume that the techniques claimed are
‘[g]roundbreaking, innovative, or even brilliant,’ but
that is not enough for eligibility.” SAP Am., 898 F.3d
at 1163.
For these reasons and others, Claim 13 fails to recite an inventive concept and is ineligible under § 101.
Because “the eligibility of the remaining claims
would stand and fall with those representative
claims,” Automated Tracking Sols., 723 Fed. App’x at
993, the remaining asserted claims in the ’389, ’942
and ’522 Patents are similarly found to encompass ineligible subject matter. The dependent claims of
the ’942 and ’522 Patents put additional restrictions
on the user in order to access the grace period, and the
dependent claims of the ’389 Patent require that the
first period (or retention period) be longer than the
second period (or playback permission period). In
other words, they simply build on abstract concepts
and do not offer other elements, either alone or considered as an ordered combination, that could be considered non-conventional.

25a
4. Conclusion
The Court GRANTS Fandango’s Motion for Judgment on the Pleadings that the asserted claims in
the ’389, ’942, and ’522 Patents are invalid for failure
to satisfy 35 U.S.C. § 101. Since this is a legal issue
and amendment would be futile, leave to amend would
be denied. In any event, such leave was not requested.

:
Initials of Preparer

26a
APPENDIX C

[List of counsel omitted]
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA,
WESTERN DIVISION

MAXELL, LTD.,
Plaintiff,
v.
FANDANGO MEDIA,
LLC,
Defendant.

Case No. 2:17-cv-07534AG (SSx)
FINAL JUDGMENT OF
COUNTS I, II, III, AND
VII

The Court Granted-in-Part Defendant’s Motion to
Dismiss for Failure to State a Claim (Dkt. 66) and
Granted Defendant’s Motion for Judgment on the
Pleadings (Dkt. 99). In view of these orders, and pursuant to Fed. R. Civ. P. 54(b), the Court determines
there is no just reason for delay and ORDERS that final judgment be entered as follows:
1. Judgment is entered against the Plaintiff Maxell, Ltd. and in favor of Defendant Fandango Media,
LLC with respect to Counts I, II, III, and VII.
2. The Clerk of Court shall close the case with respect to Counts I, II, III, and VII.
3. The case shall remain open with respect to remaining Counts IV, V, and VI.
IT IS SO ORDERED.
Dated: October 2, 2018
/s/ Andrew J. Guilford
ANDREW J. GUILFORD
United States District
Judge

